                             Department of Energy
                                 Washington, DC 20585

                                 February 22, 2007


MEMORANDUM FOR

FROM:
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The National Nuclear
                         Security Administration's Implementation of the Federal
                         Information Security Management Act"

BACKGROUND

The National Nuclear Security Administration's (NNSA) mission includes maintaining
and enhancing the U.S. nuclear weapons stockpile, reducing global danger from weapons
of mass destruction, and providing safe and effective nuclear propulsion. To achieve its
mission goals, the NNSA utilizes many classified and unclassified computer networks
and individual systems. Given the sensitivity of the infonnation residing on these
networks and systems, strong cyber security measures are essential for protecting
operational, personally identifiable, and other critical data from compromise. In Fiscal
Year 2006, NNSA officials reported that they expended just over $90 million on cyber
security in an effort to protect its information technology resources.

In September 2006, as required by the Federal Information Security Management Act
(FISMA), the Office of Inspector General completed its annual independent Evaluation
of the Department's Unclassljied Cyber Security Program 2006 (DOEIIG-0738), to
                                                           -



determine whether the Department's unclassified cyber security program adequately
protected its data and information systems. Specific infonnation supporting the
unclassified cyber security report was sensitive, identified vulnerabilities by site and was
not, therefore, for public dissemination. Based on the September 2006 report, and at
NNSA's request, we compiled this report to provide details related to specific unclassified
information system vulnerabilities.

RESULTS OF AUDIT

The NNSA had implemented a number of measures designed to reduce cyber security
risks and vulnerabilities, including strong technical controls and defense-in-depth
measures. In spite of these efforts, we identified a number of deficiencies that exposed
critical unclassified systems to an increased risk of compromise. Specifically, we found
that:

     Six NNSA sites had not completed or had not adequately performed certification
     and accreditation of all operational information technology systems as required by
     Federal regulation;

                          ATTACHED REPORT CONTAINS
                       (OFFICIAL USE ONLY) JATFORMATION
     Action had not been taken to ensure that systems at six sites containing Government
     financial information could continue or resume operations in the event of an
     emergency; and,

     Weaknesses in access controls, configuration management, and change controls
     designed to protect computer resources from unauthorized modification, loss, or
     disclosure of information initially reported in 2005 had not yet been resolved.

Cyber security weaknesses have been a continuing challenge for NNSA. We found that
NNSA did not always properly implement its own guidance as well as Departmental and
Federal cyber security requirements. In addition, NNSA had not performed regular
monitoring activities essential to evaluating the adequacy of cyber security program
performance. As a consequence, h7VSA's unclassified information systems and networks
and the data they contain remain at risk of being compromised, including the possible
unlawful diversion of operational data, personally identifiable information, or other
critical information.

As we observed during our recent Special Inquig~Report to the Secretary on Selected
Controls over ClasszJied Information at the Los Alumos National Laboratory (OAS-SR-
07-0 1, November 2006), the failure to establish and enforce cyber-related controls can
have significant consequences. The problems with the development and enforcement of
cyber safeguards at Los Alamos, that were the subject of our November 2006 report,
resulted in increased vulnerabilities that could have led to the unauthorized diversion of
classified information.

To help address continuing weaknesses, NNSA has developed an automated Integrated
Certification and Accreditation System which was designed to aid sites in preparing
certification and accreditation packages in compliance with National Institute of
Standards and Technology and Department requirements. These efforts, if properly
implemented and executed could help NNSA resolve continuing cyber security
weaknesses. However, more effort is needed in this critical area. Our report includes
several specific recommendations intended to improve protective efforts across the
NNSA complex.

MANAGEMENT REACTION

Management concurred with our findings and recommendations. In particular,
management indicated that NNSA is currently in the process of updating policies, and
will establish an assessment team to routinely review and evaluate the implementation of
cyber security requirements at NNSA sites.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Chief Information Officer, IM- 1
    Director, Policy and Internal Control Management, NA-66
                           ATTACHED REPORT CONTAINS
                       (OFFICIAL USE ONLY) INFORMATION
